           U.S. Department of
                                                        Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General

Subject:       ACTION: Quality Control Review                                   Date:   January 23, 2004
               of Audited Financial Statements
               for Fiscal Years 2003 and 2002,
               Highway Trust Fund
               QC-2004-029


  From         Kenneth M. Mead                                             Reply To     JA-20:x61496
                                                                           Attn Of
               Inspector General

    To         The Secretary

           The audit of the Highway Trust Fund (HTF) Financial Statements as of and for the
           year ended September 30, 2003, (see attachment) was completed by Clifton
           Gunderson LLP, of Calverton, Maryland. We performed a quality control review
           of the audit work to confirm that it complied with applicable standards. These
           standards include the Chief Financial Officers Act; Government Auditing
           Standards; and Office of Management and Budget (OMB) Bulletin 01-02, Audit
           Requirements for Federal Financial Statements. The Office of Inspector General
           (OIG) audited the Highway Trust Fund Financial Statements as of and for the year
           ended September 30, 2002, and issued a report dated January 24, 2003.

           The Clifton Gunderson audit report concluded that the HTF financial statements
           were presented fairly, in all material respects, in conformity with generally
           accepted accounting principles. We concur with this unqualified or “clean”
           opinion.

           The HTF agencies,1 the Office of the Secretary of Transportation, and Clifton
           Gunderson, had to overcome significant financial management and accounting
           deficiencies in order to generate auditable financial information and complete the
           audit on time. Problems caused by these long-standing deficiencies were
           compounded this year because two major HTF agencies (FHWA and FMCSA) had
           not adequately planned or implemented their conversions to the Department’s new
           accounting system, called Delphi. The audit report categorized these problems
           1
            Federal Highway Administration (FHWA), National Highway Traffic Safety Administration (NHTSA),
           Federal Transit Administration (FTA), Federal Railroad Administration (FRA), Federal Motor Carrier
           Safety Administration (FMCSA), and the Bureau of Transportation Statistics (BTS).
                                                                                  2


into 4 material internal control weaknesses and 1 reportable internal control
condition and made 23 recommendations to correct the problems. In her
January 20, 2004 response to the draft report, the Acting Assistant Secretary for
Budget and Programs / Chief Financial Officer concurred with the weaknesses,
generally agreed with the recommendations, and committed to submit a detailed
Action Plan to the OIG by February 15, 2004.

Material Weaknesses

1. Financial Statement Preparation and Analysis. Even though the audit of the
Fiscal Year (FY) 2003 financial statements was completed before the
January 30, 2004 OMB deadline, the HTF agencies expended a tremendous
amount of effort to “clean up” their accounting records in order to prepare
auditable financial statements at September 30, 2003. Required accounting
procedures, including reconciling accounts, tracking intragovernmental
transactions, and conducting related analysis were not performed throughout the
year. These problems were compounded at FHWA and FMSCA because they had
not adequately prepared for their February 2003 conversion to a new accounting
system. Unless major improvements are made in accounting policies and
procedures at all HTF agencies, the financial statements for FY 2004 may not be
completed by the accelerated OMB deadline of November 15, 2004. Clifton
Gunderson made seven recommendations to the HTF agencies to improve their
financial statement preparation and analysis procedures.

2. Reconciliation Procedures. Even though most accounts were eventually
reconciled as of September 30, 2003, many account reconciliations were not
performed during the year. Certain account reconciliations (such as Fund Balance
with Treasury, Grants, and Non-Exchange Revenue) also contained significant
differences at September 30, 2003, that needed adjustment. Other accounts (such
as advances to other agencies, budgetary accounts, and trading partner
information) did not have required subsidiary records. The lack of reconciliation
procedures and subsidiary records required the HTF agencies to expend substantial
amounts of resources researching differences between the core accounting system
and subsidiary records, and unusual transactions identified at yearend. In addition,
many adjustments made as a result of the yearend reconciliations could only be
performed at the summary rather than the detail level. The heavy focus on
completing yearend reconciliations, which continued into January 2004, has also
diverted resources from accounting for FY 2004 transactions, which may make it
more difficult to meet OMB’s accelerated FY 2004 reporting date. Clifton
Gunderson made four recommendations to the HTF agencies to improve their
reconciliation and analysis procedures.
                                                                                  3


3. Conversion to New Accounting System. FHWA and FMCSA converted to the
Delphi accounting system in February 2003. However, because they had not
adequately planned or implemented the conversion, it was not successful. The
problems encountered included the following: balances from the old system did
not accurately convert to the new system, many new transactions were not
processed accurately, and resulting subsidiary reports did not reconcile to the new
general ledger system. In addition, errors in processing new transactions after the
conversion were not fully corrected until 3 months after yearend, and many
corrections were not performed at the detail level in Delphi. Because FHWA and
FMCSA were so focused on fixing FY 2003 conversion problems, it is likely that
similar problems exist in FY 2004 transactions. Clifton Gunderson made
three recommendations to FHWA and FMCSA to complete conversion to the new
accounting system.

4. Computer Security Weaknesses. Weaknesses in security planning and
management, access controls, change controls and business continuity planning
were noted in the grant management and payment systems used by FHWA and
FTA. For example, employees separated from agencies could still access these
systems because their user accounts were not timely removed. Changes made to
these systems were not properly documented for management review, testing, and
approval. Backup sites for these systems were too close to the primary processing
sites to ensure business continuity in case of disasters. Because of the sensitivity
of the computer security issues discussed, Clifton Gunderson made
recommendations to the HTF agencies in a separate report to management.

Reportable Condition

Grants Financial Management Oversight, FHWA. During internal control testing
of 45 grant files, Clifton Gunderson noted 25 instances where FHWA Division
Offices had not performed required financial management reviews of grantees. In
addition, an ongoing OIG audit identified inactive obligations totaling about
$300 million that were unneeded and, therefore, should have been deobligated and
put to use on other projects. Clifton Gunderson made four recommendations to
FHWA to improve grants financial management and oversight.

The report also identified instances of noncompliance with the following
accounting laws and regulations:

   1.   Single Audit Act of 1984,
   2.   Federal Managers’ Financial Integrity Act of 1982,
   3.   Anti-Deficiency Act,
   4.   Managerial Cost Accounting and Performance Measurement, and
                                                                              4


   5. Federal Financial Management Improvement Act of 1996.

Clifton Gunderson made four recommendations to improve compliance with the
Single Audit Act of 1984.

In our opinion, the audit work performed by Clifton Gunderson complied with
applicable standards and we agree with the recommendations made by Clifton
Gunderson. Therefore, we are not making any additional recommendations. In
accordance with DOT Order 8000.1C, the corrective actions taken in response to
the recommendations are subject to follow-up.

We appreciate the cooperation and assistance of the HTF agencies, the Office of
Financial Management, and Clifton Gunderson representatives. If we can answer
any questions, please call me at (202) 366-1959, or Ted Alves at (202) 366-1496.

Attachment
                                       #
